No.
[N THE SUPREME COURT OF THE UNITED STATES
STEVEN T. MNUCH[N, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
V.

PATRICK J. COLLINS, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 25th day of October, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7099
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 25, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 25, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs(USDOJ.gov. Ms.
Goodwin's phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

Pg. 2
No.
Steven T. Mnuchin, Secretary, et al. v. Patrick J. Collins, et al.

Charles J. Cooper
Counsel of Record
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W. Washington, D.C. 20036
ccooper(cooperkirk.com
Charles Flores
BECK REDDEN LLP 1221
McKinney St. Houston, Texas 77010
cflores(Thbeckredden.com

